           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION


       ADMINISTRATIVE COSTS
          CLAIMED BY THE
     OHIO DIVISION OF DISABILITY
          DETERMINATION


    September 2011    A-05-09-19127




AUDIT REPORT
                                                      Mis s io n
By c o n d u c tin g in d e p e n d e n t a n d o b je c tive a u d its , e va lu a tio n s a n d in ve s tig a tio n s ,
we in s p ire p u b lic c o n fid e n c e in th e in te g rity a n d s e c u rity o f S S A’s p ro g ra m s a n d
o p e ra tio n s a n d p ro te c t th e m a g a in s t fra u d , wa s te a n d a b u s e . We p ro vid e tim e ly,
u s e fu l a n d re lia b le in fo rm a tio n a n d a d vic e to Ad m in is tra tio n o ffic ia ls , Co n g re s s
a n d th e p u b lic .

                                                    Au th o rity
Th e In s p e c to r Ge n e ra l Ac t c re a te d in d e p e n d e n t a u d it a n d in ve s tig a tive u n its ,
c a lle d th e Offic e o f In s p e c to r Ge n e ra l (OIG). Th e m is s io n o f th e OIG, a s s p e lle d
o u t in th e Ac t, is to :

    Co n d u c t a n d s u p e rvis e in d e p e n d e n t a n d o b je c tive a u d its a n d
     in ve s tig a tio n s re la tin g to a g e n c y p ro g ra m s a n d o p e ra tio n s .
    P ro m o te e c o n o m y, e ffe c tive n e s s , a n d e ffic ie n c y with in th e a g e n c y.
    P re ve n t a n d d e te c t fra u d , wa s te , a n d a b u s e in a g e n c y p ro g ra m s a n d
     o p e ra tio n s .
    Re vie w a n d m a ke re c o m m e n d a tio n s re g a rd in g e xis tin g a n d p ro p o s e d
     le g is la tio n a n d re g u la tio n s re la tin g to a g e n c y p ro g ra m s a n d o p e ra tio n s .
    Ke e p th e a g e n c y h e a d a n d th e Co n g re s s fu lly a n d c u rre n tly in fo rm e d o f
     p ro b le m s in a g e n c y p ro g ra m s a n d o p e ra tio n s .

   To e n s u re o b je c tivity, th e IG Ac t e m p o we rs th e IG with :

    In d e p e n d e n c e to d e te rm in e wh a t re vie ws to p e rfo rm .
    Ac c e s s to a ll in fo rm a tio n n e c e s s a ry fo r th e re vie ws .
    Au th o rity to p u b lis h fin d in g s a n d re c o m m e n d a tio n s b a s e d o n th e re vie ws .

                                                       Vis io n
We s trive fo r c o n tin u a l im p ro ve m e n t in S S A’s p ro g ra m s , o p e ra tio n s a n d
m a n a g e m e n t b y p ro a c tive ly s e e kin g n e w wa ys to p re ve n t a n d d e te r fra u d , wa s te
a n d a b u s e . We c o m m it to in te g rity a n d e xc e lle n c e b y s u p p o rtin g a n e n viro n m e n t
th a t p ro vid e s a va lu a b le p u b lic s e rvic e wh ile e n c o u ra g in g e m p lo ye e d e ve lo p m e n t
a n d re te n tio n a n d fo s te rin g d ive rs ity a n d in n o va tio n .
                                         SOCIAL SECURITY

MEMORANDUM

Date:   September 16, 2011                                                   Refer To:

To:     Nancy A. Berryhill
        Regional Commissioner
         Chicago

From:   Inspector General

Subject: Administrative Costs Claimed by the Ohio Division of Disability Determination
        (A-05-09-19127)


        For our audit of Federal Fiscal Year (FY) 2008 and 2009 administrative costs claimed
        by the Ohio Division of Disability Determination (OH-DDD), our objectives were to
        1. evaluate OH-DDD’s internal controls over the accounting and reporting of
           administrative costs;
        2. determine whether costs claimed by the OH-DDD were allowable and funds were
           properly drawn; and
        3. assess limited areas of the general security controls environment.

        BACKGROUND
        Disability determination services (DDS) in each State or other responsible jurisdiction
        perform disability determinations under the Social Security Administration’s (SSA)
        Disability Insurance and Supplemental Security Income programs according to Federal
        regulations. 1 Each DDS is responsible for determining claimants’ disabilities and
        ensuring adequate evidence is available to support its determinations.

        To make proper disability determinations, SSA authorizes each DDS to purchase
        medical examinations, x rays, and laboratory tests on a consultative basis to
        supplement evidence obtained from the claimants’ physicians or other treating sources. 2
        SSA reimburses the DDS for 100 percent of allowable reported expenditures up to its



        1
         The Social Security Act §§ 221 and 1614, 42 U.S.C. §§ 421 and 1382c; see also 20 C.F.R. §§ 404.1601
        et seq. and 416.1001 et seq.
        2
            20 C.F.R. §§ 404.1624 and 416.1024.
Page 2 – Nancy A. Berryhill


approved funding authorization, based on a State Agency Report of Obligations for SSA
Disability Programs (Form SSA-4513). 3

RESULTS OF REVIEW
We determined that costs claimed by the OH-DDD for the period October 1, 2007
through September 30, 2009 were allowable and properly allocated, and the system of
internal controls over the accounting and reporting of administrative costs was effective.
In addition, cumulative draws did not exceed cumulative disbursements during our audit
period. Finally, our limited review of OH-DDD’s controls over its physical security and
personally identifiable information generally showed that controls were in place. (See
Appendix C for costs reported on Forms SSA-4513.) However, we found the following
issues: (1) untimely cash draws; (2) a missing corrective action plan (CAP); and (3)
incomplete or missing steps related to security and safety.

CASH DRAWS

Our review of cash draws for the first quarter of FY 2008 found that staff drew funds for
personnel costs in some instances more than 3 days before the day the State would
have made a payroll disbursement. The Cash Management Improvement Act of 1990
(CMIA) agreement requires that the State request funds no more than 3 days before it
makes a disbursement. 4 The cash draw situation improved in FY 2009. Our review of
cash draws for the first quarter of FY 2009 affirmed that staff drew funds within 3 days.

We relied on representations made in the Single Audit of the State of Ohio for FYs
ended June 30, 2008 and June 30, 2009 because the Ohio Rehabilitation Services
Commission (OH-RSC) could not provide us with a copy of the CMIA agreement at the
time of our review. To ensure the appropriate draw down of funds in accordance with
Federal requirements, OH-RSC should continue monitoring its drawdown process and
provide a copy of the CMIA agreement to the staff responsible for cash draws.

CORRECTIVE ACTION PLAN

Chicago regional office (RO) staff indicated that OH-DDD submitted DDS Security
Checklists for FYs 2008 and 2009 and the FY 2009 CAP. However, OH-DDD did not
submit a copy of a FY 2008 CAP or documentation to support that OH-DDD evaluated
risks associated with any of its negative responses. SSA policy states any "no" answer
made on a DDS Security Checklist requires a CAP or risk assessment. 5 If a DDS does
not submit a CAP as required, the risks may remain unaddressed, which could result in
unauthorized access to sensitive SSA information.


3
    See Appendix B for additional background, scope, and methodology.
4
    Pub. L. No. 101-453, 104 Stat. 1058, in part amending 31 U.S.C. §§ 3335, 6501, and 6503 (1990).
5
    SSA, POMS, DI 39567.410 — Exhibit: DDS Security Checklist (effective April 8, 2011).
Page 3 – Nancy A. Berryhill


In FY 2010, the Agency automated the DDS Security Checklists into a Web-based
application, requiring that DDS staff provide comments or document planned corrective
actions for any of its negative responses. The RO expects OH-DDD to complete its first
online security checklist later this year. The RO should monitor the responses to the
DDS Security Checklist to ensure that OH-DDD’s corrective action plan appropriately
addresses any risks.

SECURITY AND SAFETY

Our audit identified issues regarding security, safety, and training practices at the OH-
DDD, including (1) an incomplete security plan, (2) lack of security awareness training,
and (3) undocumented evacuation and fire drills.

Security Plan

OH-DDD’s security plan was not current and did not contain all essential information
required by SSA policy. 6 We found parts of the plan were outdated, whereas other
information was missing, although available in separate paper files. For example, the
organizational chart for OH-DDD listed a director who had departed 2 years earlier.
Additionally, OH-DDD did not provide some of the documentation required by Agency
policy in the electronic files we reviewed. Table 1 outlines our findings.

                   Table 1. Results of Review of OH-DDD’s Security Plan
                     Security Plan Information                            Incomplete or
                    Required by Agency Policy               Outdated      Missing Items
           Part A – Physical Security Description                              
           Part B – DDS Systems Interconnection Access                          
           Part C – Systems Security Training                                  
           Part D – Systems Review/Recertification                             
           Part E – Violation Reports and Resolution                            
           Part F – Continuity of Operations                                   
           Part G – Disaster Recovery                                           
           Part H – Risk Assessment/Exceptions                                  

An outdated or incomplete security plan could result in a longer recovery period
following a catastrophic event. To ensure the security plan remains meaningful, the RO
should instruct OH-DDD to update its plan timely to meet SSA’s requirements.

Annual Security Awareness Training

OH-DDD staff was not completing annual security awareness training, nor was the RO
monitoring OH-DDD’s compliance with the requirement. SSA policy states that
management must (1) train personnel at least annually on security awareness and
responsibilities in protecting personally identifiable information and maintaining integrity


6
    SSA, POMS, DI 39567.160 — DDS Security Plan Overview (effective November 8, 2010).
Page 4 – Nancy A. Berryhill


and (2) validate the training. 7 In addition, all employees and contractors must sign an
annual statement acknowledging their understanding of security awareness. The DDS
should keep the signed statement on file in the DDS for at least 1 year and send a copy
to the designated RO component, such as the Center for Disability Programs or the
Center for Security and Integrity (CSI). 8

We reviewed a sample of security awareness training acknowledgement statements for
FY 2009 to ensure that the OH-DDD provided training to employees, and found the
OH-DDD could only provide 18 of 25 (73 percent) of the forms. When we asked to view
signed statements from FY 2010, we found that OH-DDD did not conduct the required
annual training that year. Our review of signed statements from FY 2011 indicated OH-
DDD generally documented that employees had completed the annual security
awareness training.

When we spoke with regional management about this matter, we found that neither the
Center for Disability Programs nor CSI at the Chicago RO had requested copies of the
forms from any DDS in the Region. According to RO management, it planned to
instruct the DDSs in the Region to send the forms to CSI in the future. Had the RO
requested the forms, it would have found that OH-DDD did not conduct security
awareness training in FY 2010.

The signed statements document that DDS employees and contractors are aware of
systems security policies, and would “eliminate an excuse of ignorance” if rules are
violated. 9 SSA should instruct OH-DDD to conduct security awareness training
annually. In addition, OH-DDD should continue to maintain the signed statements on
file for a minimum of 1 year and send copies to the RO CSI. Finally, the RO should
work with OH-DDD as well as the other DDSs in the Region to ensure the DDSs send
adequate documentation to CSI to validate the training provided to employees and
contractors.

Evacuation and Fire Drills

OH-DDD staff members informed us they do not maintain records of emergency
evacuation schedules or shelter-in-place exercises. They also stated that the last drill of
any type conducted was a fire drill in the spring/summer of 2009. SSA policy requires
that each DDS office conduct evacuation drills twice annually and document the
results. 10 OH-DDD should ensure evacuation and fire drills, as well as shelter-in-place



7
 SSA, POMS, DI 39567.355.C.1 — DDS Security Awareness and Training Overview (effective
May 16, 2011).
8
    Id, at C.3.
9
    Id.
10
     SSA, POMS, DI 39567.030.A.7 — DDS Office Safety Guidelines (effective April 11, 2011).
Page 5 – Nancy A. Berryhill


exercises, are tracked and recorded by type and frequency. OH-DDD can use OH-
RSC’s Checklist for Fire Emergency Drills and Plans Evaluation and the Checklist for
Tornado Emergency Drills and Plans Evaluation to document the results of these
exercises.

CONCLUSION AND RECOMMENDATIONS
Overall, OH-DDD had effective internal controls over the accounting and reporting of
administrative costs for FYs 2008 and 2009. In addition, OH-DDD had satisfactory
controls in place for its physical security and securing personally identifiable information.
However, we identified issues with untimely cash draws, a missing corrective action
plan, and incomplete or missing steps related to security and safety.

To improve controls over the drawdown of funds, we recommend SSA instruct OH-RSC
to:

1. Continue to monitor its drawdown process to ensure it draws funds for OH-DDD in
   accordance with Federal requirements.
2. Provide a copy of the CMIA agreement to the staff responsible for cash draws.

To address the other issues identified in our report, we recommend SSA instruct OH-
DDD to:

3. Update OH-DDD’s security plan to meet SSA requirements.
4. Conduct security awareness training annually.
5. Maintain the signed annual security awareness acknowledgement statements on file
   for a minimum of 1 year, and send copies to the RO CSI.
6. Create and periodically update a schedule to track the type and frequency of all
   drills, including evacuation and fire drills and shelter-in-place exercises.

Finally, to improve regional oversight of DDS offices, we recommend SSA:

7. Monitor the responses to the DDS Security Checklist to ensure that OH-DDD’s CAP
   appropriately addresses any risks.

8. Work with OH-DDD as well as the other DDSs in the Region to ensure that the
   DDSs send adequate documentation to CSI to validate the training provided to
   employees and contractors.
Page 6 – Nancy A. Berryhill


AGENCY COMMENTS
SSA and the OH-DDD agreed with our recommendations. The comments from the
Agency and the OH-DDD are included in Appendices D and E, respectively.




                                   Patrick P. O’Carroll, Jr.
                                     Appendices
APPENDIX A – Acronyms

APPENDIX B – Background, Scope, and Methodology

APPENDIX C – Schedule of Total Costs Reported on Forms SSA-4513—State Agency
             Reports of Obligations for SSA Disability Programs

APPENDIX D – Agency Comments

APPENDIX E – Ohio Division of Disability Determination Comments

APPENDIX F – OIG Contacts and Staff Acknowledgments
                                                              Appendix A

Acronyms
Act             Social Security Act
CAP             Corrective Action Plan
C.F.R.          Code of Federal Regulations
CMIA            Cash Management Improvement Act of 1990
CSI             Center for Security and Integrity
DDS             Disability Determination Services
DI              Disability Insurance
Form SSA-4513   State Agency Report of Obligations for SSA Disability Programs
FY              Fiscal Year
IT              Information Technology
OH-DDD          Ohio Division of Disability Determination
OH-RSC          Ohio Rehabilitation Services Commission
OMB             Office of Management and Budget
POMS            Program Operations Manual System
Pub. L. No.     Public Law Number
RO              Regional Office
SSA             Social Security Administration
SSI             Supplemental Security Income
U.S.C.          United States Code
                                                                                  Appendix B

Background, Scope, and Methodology
BACKGROUND

The Disability Insurance (DI) program, established under Title II of the Social Security
Act (Act), provides benefits to wage earners and their families in the event the wage
earner becomes disabled. The Supplemental Security Income (SSI) program,
established under Title XVI of the Act, provides payments to financially needy
individuals who are aged, blind, or disabled.

The Social Security Administration (SSA) is responsible for implementing policies for the
development of disability claims under the DI and SSI programs. Disability
determinations under both the DI and SSI programs are performed by disability
determination services (DDS) in each State, Puerto Rico, and the District of Columbia.
Such determinations are required to be performed in accordance with Federal law and
underlying regulation. 1 In carrying out its obligation, each DDS is responsible for
determining claimants’ disabilities and ensuring adequate evidence is available to
support its determinations. To assist in making proper disability determinations, each
DDS is authorized to purchase medical examinations, x rays, and laboratory tests on a
consultative basis to supplement evidence obtained from the claimants’ physicians or
other treating sources.

SSA reimburses the DDS for 100 percent of allowable reported expenditures up to its
approved funding authorization. The DDS withdraws Federal funds through the
Department of the Treasury’s Automated Standard Application for Payments System to
pay for program expenditures. Funds drawn down must comply with Federal
regulations 2 and intergovernmental agreements entered into by the Department of the
Treasury and States under the Cash Management Improvement Act of 1990. 3 An
advance or reimbursement for costs under the program must comply with the Office of
Management and Budget’s (OMB) Circular A-87, Cost Principles for State, Local, and
Indian Tribal Governments. At the end of each quarter of the Fiscal Year (FY), each
DDS submits a State Agency Report of Obligations for SSA Disability Programs (Form
SSA-4513) to account for program disbursements and unliquidated obligations.




1
 The Social Security Act §§ 221 and 1614, 42 U.S.C. §§ 421 and 1382c; see also 20 C.F.R. §§ 404.1601
et seq. and 416.1001 et seq.
2
    31 C.F.R. § 205.
3
    Pub. L. No. 101-453, 104 Stat. 1058, in part amending 31 U.S.C. §§ 3335 6501 and 6503 (1990).


                                                   B-1
SCOPE

To accomplish our objectives, we reviewed the administrative costs Ohio Division of
Disability Determination (OH-DDD) reported on its Forms SSA-4513 for FYs 2008 and
2009. For the periods reviewed, we obtained evidence to evaluate recorded financial
transactions and determine whether they were allowable under OMB Circular A-87 and
appropriate, as defined by SSA’s Program Operations Manual System (POMS).

We also:
•   Reviewed applicable Federal laws, regulations, and pertinent parts of SSA’s POMS
    and other instructions pertaining to administrative costs incurred by OH-DDD and
    draw down of SSA funds.
•   Reviewed the State of Ohio Single Audit reports issued in 2008 and 2009.
•   Interviewed staff at OH-DDD and SSA’s Chicago regional office.
•   Evaluated and tested internal controls regarding accounting and financial reporting
    and cash management activities.
•   Verified the reconciliation of official State accounting records to the administrative
    costs reported by OH-DDD on Forms SSA-4513 for FYs 2008 and 2009.
•   Examined the administrative expenditures (Personnel, Medical, and All Other Non-
    personnel costs) incurred and claimed by OH-DDD for FYs 2008 and 2009 on
    Forms SSA-4513.
•   Examined the indirect costs claimed by OH-DDD for FYs 2008 and 2009 and the
    corresponding indirect cost rate agreements.
•   Compared the amount of SSA funds drawn to support program operations to the
    allowable expenditures reported on Forms SSA-4513.
•   Conducted limited general control testing, which encompassed reviewing the
    physical access security at the DDS.
•   Reviewed policies and procedures related to personally identifiable information to
    determine whether the DDS had controls in place to protect these data.

The electronic data used in our audit were sufficiently reliable to achieve our audit
objectives. We assessed the reliability of the electronic data by reconciling them with
the costs claimed on the Forms SSA-4513. We also conducted detailed audit testing on
selected data elements in the electronic data files.

We performed our audit at the OH-DDD in Columbus, Ohio, and the Office of Audit in
Chicago, Illinois, from September 2010 through July 2011. We conducted our audit in
accordance with generally accepted government auditing standards. Those standards
require that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our audit
objectives. We believe the evidence obtained provides a reasonable basis for our
findings and conclusions based on our audit objectives.


                                             B-2
METHODOLOGY

Our sampling methodology encompassed the three general areas of costs as reported
on Forms SSA-4513: (1) Personnel, (2) Medical, and (3) All Other Non-personnel
costs. We obtained computerized data from OH-DDD for FYs 2008 and 2009 for use in
statistical sampling.

Personnel Costs

We sampled 50 employee salary items from 1 randomly selected pay period in
FY 2009. We tested regular and overtime payroll and hours for each individual
selected. We verified that approved time records were maintained and supported the
hours worked. We tested payroll records to ensure OH-DDD correctly paid employees
and adequately documented these payments. We also tested benefit calculations.

In addition, we sampled 50 medical consultant costs from FY 2009. We determined
whether sampled costs were reimbursed properly and ensured the selected medical
consultants were licensed.

Medical Costs

We sampled 100 medical evidence and consultative examination records (50 items from
each FY) using a proportional random sample. We determined whether sampled costs
were properly reimbursed.

All Other Non-Personnel Costs

We stratified all other non-personnel costs into eight categories: (1) Occupancy,
(2) Contracted Costs, (3) New Electronic Data Processing Equipment/Upgrades,
(4) Communications, (5) Applicant Travel, (6) DDS Travel, (7) Supplies, and
(8) Miscellaneous. We selected a stratified random sample of 50 items from each FY
based on the percentage of costs in each category (excluding the rent portion of
Occupancy) to total costs. We also performed a 100-percent review of the rent portion
of Occupancy expenditures.




                                         B-3
                                                            Appendix C

Schedule of Total Costs Reported on
Forms SSA-4513—State Agency Reports of
Obligations for SSA Disability Programs
                Ohio Division of Disability Determination

                FISCAL YEARS (FY) 2008 and 2009 COMBINED
    REPORTING                         UNLIQUIDATED          TOTAL
       ITEMS        DISBURSEMENTS     OBLIGATIONS       OBLIGATIONS
Personnel             $83,936,889           $0          $83,936,889
Medical               $48,676,323           $0          $48,676,323
Indirect              $15,591,189           $0          $15,591,189
All Other              $8,356,308           $0           $8,356,308
TOTAL               $156,560,709            $0         $156,560,709
                                 FY 2008
    REPORTING                         UNLIQUIDATED          TOTAL
       ITEMS        DISBURSEMENTS     OBLIGATIONS       OBLIGATIONS
Personnel             $39,988,859           $0          $39,988,859
Medical               $23,745,482           $0          $23,745,482
Indirect               $7,408,743           $0           $7,408,743
All Other              $3,668,173           $0           $3,668,173
TOTAL                 $74,811,257           $0          $74,811,257
                                 FY 2009
    REPORTING                         UNLIQUIDATED          TOTAL
       ITEMS        DISBURSEMENTS     OBLIGATIONS       OBLIGATIONS
Personnel             $43,948,030           $0          $43,948,030
Medical               $24,930,841           $0          $24,930,841
Indirect               $8,182,446           $0           $8,182,446
All Other              $4,688,135           $0           $4,688,135
TOTAL                 $81,749,452           $0          $81,749,452
                  Appendix D

Agency Comments
                                      Appendix E

Ohio Division of Disability Determination
Comments
                                                                     Appendix F

OIG Contacts and Staff Acknowledgments
OIG Contacts

   Walter Bayer, Director, Chicago Audit Division

   Deborah Kinsey, Audit Manager, Chicago Office

Acknowledgments

In addition to those named above:

   Elizabeth Ochoa, Senior Auditor

   Nichole Bazemore, Auditor

   Linda Smid, Auditor

   Wai Ho Yung, Auditor

For additional copies of this report, please visit our Website at
www.socialsecurity.gov/oig or contact the Office of the Inspector General’s Public
Affairs Staff Assistant at (410) 965-4518. Refer to Common Identification Number
A-05-09-19127.
                                 DISTRIBUTION SCHEDULE


Commissioner of Social Security
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Committee on the Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Oversight and Government Reform
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security Pensions and
Family Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
                         Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of an Office of Audit (OA), Office of Investigations
(OI), Office of the Counsel to the Inspector General (OCIG), Office of External Relations (OER), and Office of
Technology and Resource Management (OTRM). To ensure compliance with policies and procedures, internal
controls, and professional standards, the OIG also has a comprehensive Professional Responsibility and Quality
Assurance program.
                                                  Office of Audit
OA conducts financial and performance audits of the Social Security Administration’s (SSA) programs and
operations and makes recommendations to ensure program objectives are achieved effectively and efficiently.
Financial audits assess whether SSA’s financial statements fairly present SSA’s financial position, results of
operations, and cash flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s
programs and operations. OA also conducts short-term management reviews and program evaluations on issues
of concern to SSA, Congress, and the general public.
                                              Office of Investigations
OI conducts investigations related to fraud, waste, abuse, and mismanagement in SSA programs and operations.
This includes wrongdoing by applicants, beneficiaries, contractors, third parties, or SSA employees performing
their official duties. This office serves as liaison to the Department of Justice on all matters relating to the
investigation of SSA programs and personnel. OI also conducts joint investigations with other Federal, State,
and local law enforcement agencies.
                            Office of the Counsel to the Inspector General
OCIG provides independent legal advice and counsel to the IG on various matters, including statutes,
regulations, legislation, and policy directives. OCIG also advises the IG on investigative procedures and
techniques, as well as on legal implications and conclusions to be drawn from audit and investigative material.
Also, OCIG administers the Civil Monetary Penalty program.
                                        Office of External Relations
OER manages OIG’s external and public affairs programs, and serves as the principal advisor on news releases
and in providing information to the various news reporting services. OER develops OIG’s media and public
information policies, directs OIG’s external and public affairs programs, and serves as the primary contact for
those seeking information about OIG. OER prepares OIG publications, speeches, and presentations to internal
and external organizations, and responds to Congressional correspondence.
                           Office of Technology and Resource Management
OTRM supports OIG by providing information management and systems security. OTRM also coordinates
OIG’s budget, procurement, telecommunications, facilities, and human resources. In addition, OTRM is the
focal point for OIG’s strategic planning function, and the development and monitoring of performance
measures. In addition, OTRM receives and assigns for action allegations of criminal and administrative
violations of Social Security laws, identifies fugitives receiving benefit payments from SSA, and provides
technological assistance to investigations.
